CERTIFICATE OF SERVICE
I hereby certify that on January 7, 2020, a true and correct copy of the following
document was served on all counsel of record via electronic mail:
Robert B. Jackson, IV
Robert B. Jackson, IV, LLC
260 Peachtree Street – Suite 220
Atlanta, GA 30303
(404) 313-2039
rbj4law@gmail.com
Donald D. J. Stack
Stack & Associates, PC
260 Peachtree Street – Suite 1200
Atlanta, GA 30303
(404) 525-9205
dstack@stackenv.com
Counsel for Erica Y. Bryant
Alton C. Todd
The Law Firm of Alton C. Todd
312 S. Friendswood Dr.
Friendswood, TX 77546
alton@actlaw.com
Counsel for Robert Burns and Daniel
J. Gross, II

Douglas Peter Desjardins
Transportation Injury Law Group
1717 N Street, NW
Suite 300
Washington, DC 20036
(202) 638-5300
dpd@pangialaw.com
Counsel for Sharon Kay Boling and
Robert Park
James Edward Bell, III
Deloris King Cromartie
Bell Legal Group, LLC
219 Ridge Street
Georgetown, SC 29940
(843) 546-2408
jeb@edbelllaw.com
lori@edbelllaw.com
Counsel for Estelle Rivera

And one copy of the foregoing to be sent via U.S. First Class Mail to each of the
following people:
Mr. James N. Douse
Petitioner pro se
718 Thompson Lane
Bldg. 108, Unit 124
Nashville, TN 37204
Solicitor General of the United States
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Dated January 7, 2019

/s/Jay L. T. Breakstone
Jay L.T. Breakstone

